No. 19-765
In the

Michael Faust, in his official capacity as Director of
the Arizona Department of Child Safety,
Petitioner,
v.
B.K., by her next friend Margaret Tinsley,
Respondent.
ON WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT

CERTIFICATE OF SERVICE

Joel W. Nomkin
Counsel of Record
PERKINS COIE LLP
2901 North Central Avenue,
Suite 2000
Phoenix, AZ 85012-2788
602.351.8000
Attorney for Respondent

-1Pursuant to Rule 29(3) and 29(5) of the Rules of this
Court, I certify that all parties required to be served have
been served. On January 3, 2020, I caused a copy of this
letter requesting an extension of time within which to file
a brief in opposition to the petition for a writ of certiorari
to be served by overnight delivery and electronic mail on
the below-named counsel:
Paul D. Clement
Erin E. Murphy
Matthew D. Rowen
Joseph C. Schroeder
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
Paul.clement@kirkland.com
Robert L. Ellman
Ellman Law Group LLC
3030 North Central Avenue, Suite 1110
Phoenix, AZ 85012
(480) 630-6490
rle@elgarizona.com
Daniel P. Quigley
Cohen Dowd Quigley P.C.
The Camelback Esplanade One
2425 East Camelback Road, Suite 1100
Phoenix, AZ 85016
(602) 252-8400
dquigley@CDQlaw.com

-2-

RESPECTFULLY SUBMITTED, this 3rd day of
January, 2020
PERKINS COIE LLP
By /s/ Joel W. Nomkin
Joel W. Nomkin
Counsel of Record
PERKINS COIE LLP
2901 North Central
Avenue, Suite 2000
Phoenix, AZ 85012
602.351.8000
Attorney for Respondent

